              CERTIFICATION OF THE DEFENSE
             CIVILIAN PERSONNEL DATA SYSTEM


Report No. D-2001-137                          June 7, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at: www.dodig.osd.mil or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-2885

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
ADM                   Acquisition Decision Memorandum
CIO                   Chief Information Officer
CCA                   Clinger-Cohen Act
CPMS                  Civilian Personnel Management Service
DCPDS                 Defense Civilian Personnel Data System
GAO                   General Accounting Office
IPT                   Integrated Product Team
IT                    Information Technology
MDA                   Milestone Decision Authority
                         Office of the Inspector General, DoD

Report No. D-2001-137                                                      June 7, 2001
  (Project No. D-2000AS-0212)

                            Certification of the Defense
                           Civilian Personnel Data System

                                 Executive Summary

Introduction. The Clinger-Cohen Act mandated changes to the way DoD selects and
manages information technology resources and emphasized that information technology
was an enabler of business process reengineering. The Chief Information Officer, DoD,
oversees all DoD information technology investments. To help ensure effective oversight
of DoD information technology investments, Congress included Section 8121(b) in the
FY 2000 DoD Appropriations Act. This act required the Chief Information Officer, DoD,
to certify, prior to Milestone I, II, or III approval, that major automated information
systems were being developed in accordance with the Clinger-Cohen Act. Section 8121(b)
also required the Chief Information Officer, DoD, to inform Congress of the certifications
and to provide confirmation that DoD Components took certain steps with respect to the
system certification, to include business process reengineering, analysis of alternatives,
economic analysis, performance measures, and an information assurance strategy. This
audit was the first in a series of planned audits of information systems that were certified
by DoD as being compliant with the Clinger-Cohen Act.

DoD authorized the development of the modern Defense Civilian Personnel Data System
in December 1994 to support the regionalization of civilian personnel operations, which
included workforce reduction. DoD planned to concurrently field the Defense Civilian
Personnel Data System modernization and complete regionalization by December 1998.
DoD completed regionalization by June 1999, but, as of May 2001, full-scale deployment
of Defense Civilian Personnel Data System had occurred at only 5 of the 26 proposed
sites. Of the remaining 21 sites, program officials expanded testing at 6 of the sites and
planned to complete deployment for 15 sites by September 2001, almost two years after
the completion of reengineering. On May 10, 2000, the Chief Information Officer, DoD,
certified that the Defense Civilian Personnel Data System was being developed in
accordance with the Clinger-Cohen Act.

Objectives. The audit objective was to determine whether DoD oversight processes and
procedures provided the Chief Information Officer, DoD, sufficient basis to certify that
the Defense Civilian Personnel Data System was managed in accordance with the
Clinger-Cohen Act. In subsequent reports, we will evaluate the basis for certification of
other systems, assess DoD progress in implementing the Clinger-Cohen Act, and review
related management controls.

Results. The Chief Information Officer, DoD, did not have sufficient basis to certify,
without qualification, that the Defense Civilian Personnel Data System had been developed
in accordance with the Clinger-Cohen Act. Specifically, the Chief Information Officer,
DoD, lacked sufficient basis for unconditional certification because previously identified
Clinger-Cohen compliance issues were not fully resolved or recognized, relevant data
were not adequately analyzed, and key acquisition documents either were not prepared or
were not prepared and approved in a timely manner. Additionally, milestone exit criteria
were not well defined or sufficiently tracked and enforced. Further, DoD oversight did
not include specific criteria or a commonly defined approach for evaluating the basis for
Clinger-Cohen certification. As a result, the certification requirement was not an effective
means for ensuring Defense Civilian Personnel Data System compliance with the
Clinger-Cohen Act. The DoD is continuing to refine its information technology
acquisition review processes and needs to consider the lessons learned from its initial
experiences in section 8121(b) implementation, which includes the need for better
guidance and oversight.

Summary of Recommendations. We recommend that the Chief Information Officer,
DoD, clarify and enhance the methodology for determining Clinger-Cohen compliance;
improve information technology oversight processes by periodically confirming the
accuracy and adequacy of information reported by DoD Components; coordinate with the
Civilian Personnel Management Service to implement common DoD-wide performance
measures; and continue oversight of post-development Defense Civilian Personnel Data
System program activities. We also recommend that the Director, Civilian Personnel
Management Service, reassess system interfaces and enhance user guidance to ensure that
the information assurance posture of the system is appropriate.

Management Comments. Management commented that we inappropriately describe
previously identified issues as Clinger-Cohen Act compliance issues because associated
decisions were made before the Act was legislated. The Acting Deputy Assistant
Secretary of Defense (Deputy Chief Information Officer) concurred with the
recommendations to clarify and strengthen the certification criteria and processes used by
the Chief Information Officer and the DoD Components to determine whether major
automated information systems are developed in accordance with the Clinger-Cohen Act.
However, the Deputy Assistant Secretary nonconcurred with the draft recommendation to
implement standardized functional performance measures because implementation is a
responsibility of the system owner. Additionally, the Acting Assistant Secretary of
Defense (Force Management Policy) and the Director, Civilian Personnel Management
Service, jointly indicated nonconcurrence with both recommendations on information
assurance stating that all system interfaces were appropriately secured and processes
documented, and that the related recommendations should be removed.

Audit Response. We recognize that the basis for some issues predates the passage of the
Clinger-Cohen Act in 1996, but the concepts mandated by the Act were not new to DoD.
Similar Office of Management and Budget and DoD policy and requirements existed prior
to the enactment of Clinger-Cohen and were fully applicable to Defense Civilian Personnel
Data System program decisions made before and after the enactment of Clinger-Cohen.
Although the Acting Deputy Assistant Secretary (Deputy Chief Information Officer)
concurred with most recommendations, the comments were partially responsive. We
asked for additional comments on the development of an action plan for enhancing Chief
Information Officer oversight and completion dates for the recommendations. We also
revised Recommendation 1.c. on implementing performance measures to more
appropriately focus on the role of oversight. Based on the comments of the Director,
Civilian Personnel Management Service, we revised both recommendations related to
information assurance. We revised Recommendation 2.a. so that we no longer tied system
deployment at additional sites to the implementation of our recommendations. We also
revised Recommendation 2.b. to allow flexibility in publishing the enhanced security
guidance as long as the guidance is documented and easily accessible. We request that
management provide additional comments on the final report by July 9, 2001.



                                             ii
Table of Contents

Executive Summary                                                           i

Introduction
     Background                                                             1
     Objectives                                                             4

Finding
     Certification of the Defense Civilian Personnel Data System as
       Compliant with the Clinger-Cohen Act                                5

Appendixes
     A. Audit Process
         Scope and Methodology                                             21
         Prior Coverage                                                    22
     B. Defense Civilian Personnel Data System                             24
     C. Timeline of Major Defense Civilian Personnel Data System Program
         Documentation                                                     26
     D. Summary of Management Comments on the Finding and
         Audit Response                                                    27
     E. Report Distribution                                                32

Management Comments
     Assistant Secretary of Defense (Command, Control, Communications,
       and Intelligence)                                                   35
     Assistant Secretary of Defense (Force Management Policy)              63
Background
    In the mid-1990s, Congress passed several pieces of reform legislation designed
    to improve the management and performance of Federal agencies. The reform
    legislation responded to the inability of Federal agencies to effectively manage
    the acquisition of information technology (IT) systems that met the needs of
    functional users. One major reform initiative was the Information Technology
    Management Reform Act of 1996, which was subsequently retitled the
    Clinger-Cohen Act of 1996.

    Clinger-Cohen Act of 1996. The Clinger-Cohen Act of 1996 (CCA) requires
    Federal agencies to focus on the results achieved through IT investments while
    streamlining the Federal IT procurement process. Specifically, the CCA
    required agencies to design and implement a structure and process for acquiring
    and managing IT. One of the primary requirements of the CCA was the
    establishment of the position of the Chief Information Officer for each Federal
    agency.

    To comply with this requirement, in June 1997, the Secretary of Defense
    designated the Assistant Secretary of Defense (Command, Control,
    Communications, and Intelligence) as the Chief Information Officer, DoD (the
    CIO), and conferred the authority and responsibility for implementing all
    aspects of the CCA. The CIO responsibilities include:

           •   designing and implementing a process for maximizing the value and
               assessing and managing the risks of DoD IT acquisitions (delegated
               by the Secretary of Defense);

           •   institutionalizing performance- and results-based IT management
               (delegated by the Secretary of Defense); and

           •   providing advice and other assistance to the Secretary of Defense and
               other senior DoD managers to ensure that the acquisition of IT and
               information resources was managed in accordance with the policies
               of the CCA.

    The Secretary of Defense also made the CIO responsible for the management
    and oversight of all DoD IT systems. Specific responsibilities included
    overseeing the performance of IT programs and measuring program progress
    through system milestone reviews.

    Congressional Concerns. In the House of Representatives Report 106-244,
    “Report of the Committee on Appropriations,” July 20, 1999, the House
    Committee on Appropriations expressed disappointment in the effectiveness of
    management oversight of DoD IT system acquisition projects. Specifically, the
    Committee stated that IT systems tended to overrun budgets, slip schedules,
    evade data standardization and interoperability requirements, and shortchange
    user needs. In an attempt to address some of those concerns, Congress
    developed provisions to prohibit any DoD IT system from receiving approval in


                                        1
an acquisition development milestone decision without written certification from
the CIO that the system has been developed in accordance with the CCA.

Statutory Requirements. Additionally, Congress enacted section 8121(b),
“Certifications as to Compliance with the Clinger-Cohen Act” of the FY 2000
DoD Appropriations Act, which states:
          (1) During the fiscal year 2000, a major automated information system
          may not receive Milestone I approval, Milestone II approval, or
          Milestone III approval within the Department of Defense until the
          Chief Information Officer certifies, with respect to that milestone, that
          the system is being developed in accordance with the Clinger-Cohen
          Act of 1996 (40 U.S.C 1401 et seq.). The Chief Information Officer
          may require additional certifications, as appropriate, with respect to
          any such system.

          (2) The Chief Information Officer shall provide the congressional
          defense committees timely notification of certifications under
          paragraph (1). Each such notification shall include, at a minimum, the
          funding baseline and milestone schedule for each system covered by
          such a certification and confirmation that the following steps have
          been taken with respect to the system:

              A)       Business process reengineering.

              B)       An analysis of alternatives.

              C)       An economic analysis that includes a calculation of the
                       return on investment.

              D)       Performance measures.

              E)       An information assurance strategy consistent with DoD
                       Command, Control, Communications, Computers,
                       Intelligence, and Reconnaissance Architecture
                       Framework.

On October 30, 2000, Congress enacted Public Law 106-398, the FY 2001 DoD
Authorization Act, section 811(c), “Milestone Approval For Major Automated
Information Systems,” which reinforced the requirements of section 8121(b) and
clarified that the CIO shall determine whether the IT system was being
developed in accordance with the requirements of division E of the CCA.

Related DoD Policy and Requirements. The specific interest items iterated in
section 8121(b) were specifically recognized and required by DoD policy and
guidance prior to passage of the CCA in 1996. DoD Directive 8000.1,
“Defense Information Management (IM) Program,” October 27, 1992, provides
high-level DoD policy regarding information management, including supporting
IT systems. The Directive levies requirements and responsibilities for business
process streamlining and improvements; preparing and validating functional
economic analyses, which includes analyses of alternatives and investment risk;

                                         2
           developing functional process performance measures and assessments; and
           ensuring appropriate information security. Additionally, DoD Directive 8120.1,
           “Life-Cycle Management (LCM) of Automated Information Systems (AISs),”
           January 14, 1993,1 had stated that it was DoD policy to control IT system
           expenditures to ensure that derived benefits satisfy mission needs to the greatest
           extent possible and in the most cost-effective manner. Accordingly,
           Directive 8120.1 emphasized the importance of those specific section 8121(b)
           interest items that are critical in the “early-on” IT development stages,
           especially those related to improving business processes and examining
           alternatives and projecting related costs and benefits. DoD acquisition guidance
           also contained requirements related to basic principles of sound system
           acquisition management.

           Acquisition Program Milestones. A milestone is a decision point that
           separates major phases of an acquisition program. Until October 2000, the
           major DoD acquisition phases included Concept Exploration (Phase 0), Program
           Definition and Risk Reduction (Phase I), Engineering and Manufacturing
           Development (Phase II), and Production, Fielding/Deployment, and Operational
           Support (Phase III). DoD acquisition policy requires a milestone decision
           before an acquisition program may progress to the next phase of development.
           The CIO, as the Milestone Decision Authority (MDA) for major automated
           information systems, approved milestone decisions for high-cost or special
           interest IT acquisition programs. In October 2000, DoD substantially revised its
           acquisition guidance and requirements. Those revisions included a reduced
           number of major milestone phases and associated decision points. DoD also
           revised acquisition regulations to more clearly and effectively implement various
           aspects of IT reform legislation, including those related to the CCA.

           Key Acquisition Documents. As part of the acquisition program milestone
           review, key acquisition documents, such as an Acquisition Program Baseline
           and Test and Evaluation Master Plan, are fundamental to the effective
           acquisition management and oversight of IT systems. Accordingly, senior
           representatives from the Office of the Secretary of Defense rely on key
           acquisition documents to help implement the CCA. Although DoD
           de-emphasized some mandatory documentation requirements, DoD provided
           clear direction on statutory and regulatory requirements for appropriate program
           documentation for milestone reviews.

           Defense Civilian Personnel Data System. On May 10, 2000, the Defense
           Civilian Personnel Data System (DCPDS) was certified as one of the first
           systems developed in accordance with the CCA. The primary goal of the
           DCPDS Program was to provide all DoD Components with a single,
           standardized, automated civilian personnel management system that would
           provide the software application tools and the requisite hardware to support
           regionalization of DoD civilian personnel mission requirements and operations
           and a reduced workforce. Initially, DoD planned to field the modern DCPDS
           and complete regionalization by December 1998. By June 1999, DoD

1
    DoD Directive 5000.1, “Defense Acquisition,” March 15, 1996, cancelled DoD Directive 8120.1 and
    incorporated the policies and requirements on life-cycle management for automated information systems.



                                                     3
     completed regionalization of all 22 regional support centers. However, initial
     deployment of the DCPDS did not start until October 1999, with complete
     deployment scheduled for September 2001. The Civilian Personnel
     Management Service (CPMS) was the functional proponent for the DCPDS
     Program and IT system acquisition program management was performed by the
     Central Design Activity at the Air Force Personnel Center. Upon Milestone III
     approval, the Central Design Activity ceased to provide acquisition program
     management services, and CPMS assumed overall program acquisition and
     management responsibilities. Appendix B provides a detailed description of the
     DCPDS Program.

Objectives
     The audit objective was to determine whether DoD oversight processes and
     procedures provided the Chief Information Officer, DoD, with a sufficient basis
     to certify that the Defense Civilian Personnel Data System was being managed
     in accordance with the Clinger-Cohen Act. This report is the first of a series.
     In subsequent reports, we will evaluate the basis for certification of other
     systems, assess DoD progress in implementing the Clinger-Cohen Act, and
     review related management controls. A description of the audit scope and
     methodology and prior coverage related to the DCPDS Program is shown in
     Appendix A.




                                        4
           Certification of the Defense Civilian
           Personnel Data System As Compliant
           with the Clinger-Cohen Act
           The CIO did not have a sufficient basis to certify, without qualification,
           that DCPDS had been developed in accordance with the Clinger-Cohen
           Act. The CIO lacked sufficient basis because:

                  •   previously identified CCA compliance issues had not been
                      fully resolved, and relevant data were not adequately
                      analyzed;

                  •   key acquisition documents either were not prepared or were
                      not prepared and appropriately approved in a timely manner,
                      and were not regularly updated;

                  •   milestone exit criteria were not well defined or sufficiently
                      tracked and enforced;

                  •   CIO management controls for overseeing the DCPDS
                      development did not provide active oversight participation and
                      involvement by senior DoD advisors at key decision points or
                      adequate and ongoing direction and guidance to the DCPDS
                      Program; and

                  •   the CIO did not establish specific criteria for or define a
                      common approach to evaluating the basis for CCA
                      certification.

           As a result, in the case of the DCPDS Program, the certification
           requirement was not an effective means of ensuring compliance with the
           CCA.

DCPDS Certification Process
    CPMS officials had to use draft procedures to prepare the DCPDS Compliance
    Report because the CIO did not complete a standard section 8121(b) certification
    process until after he had certified the DCPDS Program as CCA compliant.
    The DCPDS was certified to Congress on May 10, 2000; however, the CIO did
    not complete the standard section 8121(b) certification process until July 13,
    2000. Although the use of draft procedures during the DCPDS certification
    process did not materially affect the validity of the certification, official
    guidance establishes management’s position, intent, and applicability of the
    policy. Both the draft and final versions of section 8121(b) certification
    procedures required DoD Component heads to prepare a compliance report
    prior to each milestone approval.


                                        5
     The Office of the Director, CPMS, prepared the compliance report for the
     DCPDS Program, which summarized the requirements of section 8121(b),
     provided background information on the DCPDS Program, and outlined the
     actions taken by CPMS on the five section 8121(b) interest items: business
     process reengineering, analysis of alternatives, economic analysis, performance
     measures, and an information assurance strategy. A review team represented by
     various staff offices within the Office of the Secretary of Defense then prepared
     the congressional certification report for the signature of the CIO. The
     compliance report and the certification report essentially contained the same
     information. On March 17, 2000, the review team briefed the Deputy CIO on
     the draft DCPDS certification report. The briefing included confirmation of
     steps taken to address each of the five specific congressional interest items.
     During its briefing to the Deputy CIO, the review team presented a qualified
     confirmation of steps taken regarding business process reengineering, analysis
     of alternatives, and performance measures because the General Accounting
     Office (GAO) previously identified problems in those areas.

     Because CPMS initiated actions to address GAO concerns, the review team
     recommended that the CIO certify DCPDS as CCA compliant. The Deputy CIO
     tentatively approved certification during the briefing, thus authorizing the
     preparation of the official certification report and congressional notification
     letters for the CIO to sign for Congress. The certification report and
     notification letters were coordinated with and endorsed by the Office of the
     Under Secretary of Defense (Comptroller); the Office of the Director, Program
     Analysis and Evaluation; the Office of the Assistant Secretary of Defense for
     Legislative Affairs; the Office of the Deputy Under Secretary of Defense for
     Program Integration; the Office of General Counsel; the Office of the Deputy
     Assistant Secretary of Defense for Civilian Personnel Policy; and the Office of
     the Assistant Secretary of the Air Force for Acquisition.

Resolution of Previously Identified CCA Compliance Issues
     In its report GAO/AIMD-99-20, “Defense IRM: Alternatives Should Be
     Considered in Developing the New Civilian Personnel System,” January 1999,
     the GAO identified DCPDS development problems related to each of the five
     interest items listed in section 8121(b). The GAO concluded that the DCPDS
     development provided DoD with little assurance that its investment was optimal
     because of weaknesses identified in business process reengineering, analysis of
     alternatives and economic analyses, and performance measures. Additionally,
     DCPDS security risks had not been adequately addressed. GAO
     recommendations included a reevaluation of alternatives, with the costs and
     benefits of each alternative determined through economic analyses, and the
     standardization of performance measurements. GAO also recommended actions
     to adequately secure and protect DCPDS sensitive data.

     In effect, the results of the GAO review should have informed DoD that DCPDS
     development had not been in accordance with the CCA. Because the report to



                                         6
Congress did not mention the results of the GAO review, we included steps in
our audit to validate GAO conclusions and to evaluate DoD actions to
implement related recommendations.

DoD Investment in DCPDS. To determine whether the CIO had a firm basis
for certifying that DCPDS was developed in accordance with the IT system
investment principles of CCA, we evaluated the actions taken on related
section 8121(b) interest items: business process reengineering, analysis of
alternatives, economic analysis, and performance measures.

        Business Process Reengineering. DoD efforts to reengineer personnel
management processes prior to DCPDS investment met the general intent of
CCA. Business process reengineering is a systematic and disciplined
improvement approach that critically examines, rethinks, and redesigns
mission-delivery processes to improve performance in areas that are important
to customers and stakeholders. The redesign of business processes has to occur
prior to system development to maximize the value of IT system investment.

Business process reengineering is normally accomplished through three basic
steps. First, an “as-is” model is produced, which provides detailed descriptions
of existing functional processes. Capitalizing on current IT technology and
capabilities, a “to-be” functional process is then designed, which details the
reengineered processes. Once the redesigned business processes are
determined, an IT system can be designed and developed to best implement the
reengineered business processes.

To re-engineer civilian personnel business processes, DoD initiated the
modernization of the DCPDS to support regionalization of civilian personnel
operations, which included workforce reduction. DoD began regionalization
efforts in 1989 and completed those efforts by June 1999. To enable DoD
regionalization efforts, DoD developed the modern DCPDS, with plans to
complete the modernization effort by December 1998. However, DCPDS
deployment to various test sites did not begin until October 1999 with an
estimated completion date of September 2001, almost 2 years after
regionalization was completed. Consequently, DoD’s reengineering of civilian
personnel management business processes did not yield all the expected benefits
at that time because the enabling IT system, DCPDS, had not met original
timeframes.

DoD completed the redesign of personnel business processes before the
completion of the enabling IT system development. However, a fully effective
reengineered business process required timely implementation and integration of
the IT system with the modified processes.

        Analysis of Alternatives and Economic Analysis. CPMS officials
could not demonstrate that they selected the DCPDS Program IT system through
a process of rigorous analysis of alternatives and economic analysis. An
analysis of alternatives and an economic analysis are directly related. Effective
use of an analysis of alternatives, in conjunction with an economic analysis,
provides a viable basis for evaluating potential solutions and selecting the most
cost-beneficial alternative. The analysis of alternatives generally starts with a


                                    7
broad base of possible solutions to meet a mission need. Once the field of
possible solutions is narrowed to a few realistic alternatives, then the principles
of economic analysis and its tools of cost-benefit analysis and return-on-
investment are applied to identify the most promising solution.

DCPDS managers did not meet the requirements of DoD Instruction 7041.3,
“Economic Analysis for Decision Making.” DoD Instruction 7041.3 states that
each feasible alternative for meeting an objective must be considered and its life-
cycle costs and benefits evaluated. The Instruction also states that alternatives
dismissed as infeasible must be discussed, but need not be formally compared,
in the economic analysis. Additionally, the Instruction requires that the
economic analysis provide a detailed cost/benefit analysis for all alternatives
deemed feasible through the analysis of alternatives process. The emphasis on
documentation is appropriate because all significant DoD investments undergo
some form of management review. Oversight cannot be effective without a
clear understanding of why a proposed investment is the best available
alternative.

In 1995, CPMS officials decided to base the acquisition of the DCPDS Program
upon commercially available software and selected an Oracle product.
However, there was little evidence to demonstrate that their selection process
employed a rigorous analysis of alternatives or economic analyses detailing the
expected costs, benefits, and returns on investments. CPMS officials evaluated
three commercial products to determine how well each product would meet DoD
personnel management needs and the initial costs for each product. The
selection process did not clearly demonstrate that the Oracle product represented
the best DCPDS investment alternative.

In its January 1999 report, GAO recommended that DoD analyze all
commercially available alternatives and the related costs and benefits of each.
DCPDS Program officials agreed, but did not commit to reevaluating the Oracle
selection. CPMS officials told us that Oracle was the only software that could
perform DCPDS requirements and that further economic analysis made no
sense, given the level of investment in DCPDS at the time of the GAO report.
Additionally, DCPDS development was almost complete and further analysis
would have unnecessarily delayed implementation of DCPDS. In July 1999,
GAO representatives agreed with CPMS officials that it was too late in the
development process to reconsider Oracle and that the CPMS should turn its
focus to the future.

Because the CIO provided DCPDS with a conditional Milestone III approval on
May 19, 2000, we agree that further analysis of alternatives and economic
analyses would provide little benefit at such a late stage of development.
However, CPMS officials should perform a well documented analysis of
alternatives and an economic analysis for any significant future product
improvements or upgrades.

Performance Measures. The “DoD Guide for Managing Information
Technology (IT) as an Investment and Measuring Performance,” February 10,
1997, defined IT performance measurement as:

                                     8
          The assessment of effectiveness and efficiency of IT in support of the
          achievement of an organization’s missions, goals, and quantitative
          objectives through the application of outcome-based measurable, and
          quantifiable criteria, compared against an established baseline, to
          activities, operations, and processes.

          Evaluation of a program’s effectiveness and efficiency begins with the
          establishment of a performance measurement baseline. Performance
          measures are developed based on expected outcomes, assessed against
          the baseline, and continually monitored to determine whether they are
          being achieved. Individual measures are defined and then quantified
          with targets and thresholds to form the performance measurement
          baseline.

In its January 1999 report, GAO emphasized that common definitions for
performance measures were needed to uniformly and consistently measure
mission performance gains of all DoD Components. As of October 2000,
CPMS officials had not obtained agreement between the Military Departments
on definitions for common performance measures. Further, because the
performance baselines established by the Military Departments were premised
on their unique definitions, DoD did not have a common base from which to
measure DCPDS performance gains. Because CPMS officials did not insist that
each DoD Component establish performance measures based on common
definitions, DoD was not able to meaningfully assess the impact of DCPDS on
its DoD-wide civilian personnel management mission. Additionally, without
standard performance measures and related baselines, DoD was not able to
uniformly assess and quantify performance gains attributable to DCPDS by all
Components.

The CIO description provided to Congress of steps relating to DCPDS
performance measures was not complete; however, DoD could still establish and
implement uniform DCPDS performance measures. Specifically, the CIO, in
coordination with CPMS, should make sure that uniform DCPDS performance
measures are implemented by all DoD Components. Such action would provide
the CIO with a basis to comply with the specific CCA requirement to measure
how well DCPDS supported the users. Uniform performance measures would
also better enable the CIO to meet the CCA requirement to annually report DoD
progress in achieving DCPDS goals to Congress.

Information Assurance. CPMS officials took substantial action to improve the
DCPDS information assurance posture in response to prior reports and reviews;
however, we identified further opportunities for CPMS to improve the
information assurance posture of DCPDS assets. Information assurance, often
referred to as information security, is the process used to protect and defend




                                       9
           information and information systems by ensuring their confidentiality, integrity,
           availability, and non-repudiation2.

                   Action Taken on Prior Audits and Reviews. Office of Inspector
           General, DoD, Report No. 98-082, “Information Assurance of the Defense
           Civilian Personnel Data System,” February 23, 1998, identified high DCPDS
           risks concerning unauthorized system access, inappropriate alteration and
           destruction of personnel data, and denial of service to users. Recommendations
           included the implementation of information assurance measures and procedures
           to protect civilian personnel data. In its January 1999 report, GAO identified
           DCPDS information assurance weaknesses regarding physical security of related
           hardware and personnel data and the use of non-secure data networks, including
           the Internet. GAO recommended an assessment of DCPDS security risks and
           needs, encryption to protect DCPDS sensitive personnel data, and security
           awareness at all DCPDS sites.

           CPMS officials initiated and implemented aggressive actions to improve the
           information assurance of DCPDS and to satisfy related Inspector General and
           GAO recommendations. Those actions included the encryption of data
           exchanged between the regional centers and associated customer support units,
           the performance of DCPDS risk assessments and DCPDS security test and
           evaluations, the designation of information system security officers at each
           DCPDS site, and the formal accreditation of DCPDS as being appropriately
           secured.

                  Assessment of DCPDS Information Assurance. Overall, DoD
           adequately and fairly described the DCPDS information assurance posture in the
           congressional notification. We commend CPMS actions that greatly
           strengthened the information assurance of DCPDS; however, we identified
           additional areas of concern and opportunities for CPMS management to further
           strengthen DCPDS information assurance.

           CPMS lacked a documented risk assessment for unencrypted data exchanged
           among the centralized corporate database, the Regional Service Centers, and
           other non-DCPDS external systems. As of November 2000, data encryption
           between some of these links did not exist. Accordingly, the Director, CPMS,
           should perform a risk assessment of the unencrypted interfaces to determine
           whether the transmittal of passwords, user identifications, and DCPDS data over
           the unsecured Internet could be better protected and should implement, if
           deemed appropriate, enhanced security controls.

           We also identified a need for enhancements to DCPDS end user security policy
           and guidance. First, CPMS placed the responsibility for establishing strong
           passwords on the user. Secondly, DCPDS did not automatically disconnect
           users after a predetermined period of inactivity. Lastly, DCPDS did not
           consistently mark output products that contained sensitive data. Accordingly,
           DCPDS managers should develop procedures to guide and instruct DCPDS

2
    Non-repudiation refers to the positive identification of who accessed a system and what transactions
    were performed.

                                                      10
           users in establishing and maintaining effective passwords, the use of keyboard
           locking mechanisms, and ensuring all sensitive documents are appropriately
           marked. To be of maximum benefit, DCPDS users must be made aware of the
           need for diligent security procedures and associated security guidance should be
           quickly and easily accessible by DCPDS users.

Key Documentation for Milestone Reviews
           The House Appropriations Committee’s Report on the DoD Appropriations Bill
           for FY 2000 provided insight on the congressional concerns that resulted in
           section 8121(b) certification requirements. The Committee was disappointed
           with DoD oversight of its information technology systems, including acquisition
           milestone reviews. Specifically, the report stated, “Those systems that are
           reviewed are often approved despite lacking key documentation.” The
           Milestone Decision Authority did not ensure that key documentation for DCPDS
           was prepared and appropriately coordinated and approved for consideration
           during milestone decisions.

           DoD Acquisition Documentation Requirements. DoD Regulation 5000.2-R,
           “Mandatory Procedures for Major Defense Acquisition Programs (MDAPs) and
           Major Automated Information System (MAISs) Acquisition Programs,”
           March 15, 1996,3 allows the MDA to tailor the documentation requirements for
           each acquisition program. Specifically, the Regulation states that:
                       Any singular MDAP or MAIS need not follow the entire process
                       described below. However, cognizant of this model, the Program
                       Manager (PM) and the Milestone Decision Authority (MDA) shall
                       structure the MDAP or MAIS to ensure a logical progression through
                       a series of phases designed to reduce risk, ensure affordability, and
                       provide adequate information for decision-making that will provide the
                       needed capability to the warfighter in the shortest practical time.

           Although the MDA may tailor the documentation required, the MDA tentatively
           approved DCPDS milestones without ensuring that documentation key to
           making sound milestone decisions had been prepared or had not been
           appropriately coordinated and approved. Further, actual milestone decisions
           were not clearly delineated or adequately documented.

           Milestones I and II Documentation. On May 20, 1996, the MDA provided a
           provisional Milestone I approval and implied a Milestone II approval. The
           MDA approved Milestone I pending the receipt, within 60 days, of an approved
           Operational Requirements Document, Acquisition Program Baseline, and Test
           and Evaluation Master Plan. The documents required by the MDA, which
           provide critical insight to key aspects of program strategy and direction, were
           not submitted for several months. One reason for delay was that DCPDS

3
    Reissued as Interim Regulation, DoD 5000.2-R, “Mandatory Procedures for Major Defense Acquisition
    Programs (MDAPs) and Major Automated Information Systems (MAIS) Acquisition Programs,”
    January 1, 2001



                                                    11
     managers did not fully recognize the time needed to extensively coordinate key
     documents and to obtain the requisite approvals from other than functional
     officials. For example, ultimate approval of the DCPDS Master Test and
     Evaluation Plan had to be obtained from DoD developmental and operational
     testing organizations. The MDA indicated a Milestone II approval by
     authorizing the DCPDS Program to continue the design analysis and
     development of application software, activities normally undertaken in Phase II
     of an acquisition. However, the required documentation was not provided
     during the specified timeframe. Therefore, it is unclear whether the original
     milestone decision was nullified. No final Milestone I or II decision by the
     MDA was documented.

     Milestone III Documentation. On May 19, 2000, the MDA provided a
     conditional Milestone III approval for the DCPDS Program although several key
     documents had not been developed. For example, after 4 years, CPMS still had
     not prepared a formal Analysis of Alternatives or standard DoD performance
     measures for DCPDS, even though GAO had previously identified weaknesses
     in those areas. Additionally, the MDA did not ensure that DCPDS Program
     officials developed a DCPDS implementation risk analysis and mediation plan
     even though DCPDS implementation was contracted to an outside source.
     Further, although DCPDS did not meet all Operational Requirements Document
     requirements and key performance parameters during the Qualification
     Operational Test and Evaluation, DCPDS managers did not document an
     approach for resolving the testing issues for MDA consideration during the
     milestone review.

Milestone Exit Criteria
     DoD Regulation 5000.2-R states that the Program Manager shall propose and
     the MDA shall approve exit criteria appropriate to the next acquisition phase at
     each milestone review. Exit criteria should demonstrate a level of performance
     outcome, accomplishment of a process at a particular level of efficiency,
     accomplishment of an event, or some other indication that the program is
     progressing satisfactorily. The Regulation also requires the acquisition decision
     memorandum (ADM) to document exit criteria requirements.

     The ADM issued by the MDA for the May 1996 and May 2000 milestone
     decision approvals did not contain sufficient exit criteria to guide the DCPDS
     Program through the next acquisition phase. Rather than provide requirements
     for the next acquisition phase, the ADM required specific steps for program
     officials to perform that should have been completed during the previous
     acquisition phase. Additionally, the MDA did not ensure sufficient followup to
     enforce the provisions set forth in the ADM.

     Milestone I Exit Criteria. The May 20, 1996, ADM provided Milestone I
     approval pending the submission by July 1996 of an approved Operational
     Requirements Document, an Acquisition Program Baseline, and a Test and
     Evaluation Master Plan. DCPDS Program officials should have submitted fully
     coordinated and approved key documents for consideration before the

                                        12
Milestone I decision, but did not submit them to the CIO in final form until 4,
21, and 31 months, respectively, after the Milestone I decision. The CIO also
did not ensure that the documents were prepared, approved, and submitted in a
timely manner as required by the ADM. Appendix C provides a timeline of
DCPDS program events including approval dates for milestone decisions and
program documentation.

The ADM also stated specific requirements that DCPDS Program officials
needed to meet before exiting Phase II, such as the development of a risk
management plan. DCPDS Program officials developed and approved a risk-
management plan in February 1997, but did not update it until DCPDS Program
officials prepared a draft pre-Milestone III Technical Risk Management Plan in
January 2000. However, the Director, CPMS, did not approve the draft plan.

Milestone III Exit Criteria. The May 19, 2000, ADM authorized the DCPDS
Program to proceed to the deployment phase subject to completing several
actions before fielding. The ADM required the Director, CPMS, to provide
within 30 days, a Memorandum of Understanding of the mission-essential
functions necessary to field the system, an approved deployment schedule, and
an acquisition program structure. The ADM also required the Director, CPMS,
to fully develop the mission-essential functions and the Air Force Operational
Test and Evaluation Center to perform the appropriate operational testing before
deployment. The Director, CPMS, provided the three documents to the CIO
within 30 days, but the CIO did not question the adequacy of the CPMS
documentation and did not ensure that the deficiencies identified during testing
were addressed.

       Mission-Essential Functions. The Qualification Operational Test and
Evaluation Test Report prepared by the Air Force Operational Test and
Evaluation Center concluded that DCPDS was effective and suitable and
recommended a Milestone III approval. However, DCPDS did not meet all of
the Key Performance Parameter requirements of the Operational Requirements
Document. The Test Report recommended that the capabilities dealing with
mass actions be operational before the DCPDS was fielded. However, the
May 19, 2000, ADM did not specifically request that CPMS officials address
the Test Report recommendations. Rather than determining whether those
requirements should be waived, the Memorandum of Understanding provided by
the Director, CPMS, and the functional Components focused on pre-planned
upgrades. As a result, the Air Force Operational Test and Evaluation Center
Test Report recommendation on mass actions was not specifically addressed and
it remained unclear whether the requirement would be resolved before the
DCPDS was fielded.

       Deployment Schedule. The CPMS provided a deployment schedule on
June 19, 2000, which showed that fielding was to begin on August 4, 2000.
The schedule was unrealistic because additional testing had not been scheduled.
The CPMS began limited deployment to expand the modern DCPDS test base
on October 13, 2000. As of May 2001, CPMS had deployed five full-scale core
systems and expanded field-testing at six test sites. CPMS plans to complete
DCPDS deployment by September 2001.



                                   13
             CPMS Acquisition Program Structure. In September 1999, the CIO
     authorized the transition of DCPDS implementation, sustainment, operations
     and maintenance from the program management organization to a commercial
     vendor. In May 2000, the transition occurred and the DCPDS program office
     was dissolved. With the transition and subsequent loss of acquisition program
     oversight, CPMS officials were required to develop an acquisition program
     strategy for assuming overall DCPDS program management responsibilities. In
     October 1999, CPMS officials established a separate Vendor Management
     Office to provide management oversight and support to DCPDS procurement,
     contract, and certification activities.

     Because the assumption of acquisition program management responsibilities by
     the functional proponent was highly unusual, we reviewed the qualifications of
     the Vendor Management Office staff to determine whether staff qualifications
     were appropriate for the task. Although staff qualifications appeared adequate,
     the CIO should continue to periodically oversee the CPMS throughout the
     fielding and operational support of DCPDS.

Effectiveness of CIO Oversight
     We examined the structure and procedures for CIO acquisition oversight of the
     DCPDS Program. We also evaluated the data relied upon by the CIO in making
     oversight decisions. The DCPDS oversight controls were not fully effective
     because the senior advisory team to the CIO was not fully involved. We also
     identified control weaknesses associated with the ongoing oversight process of
     the DCPDS Program.

     Information Technology Overarching Integrated Product Team. The
     Information Technology Overarching Integrated Product Team (Overarching
     IPT) was minimally involved in the oversight of the DCPDS Program. The
     primary role of the Overarching IPT was to provide advice to the CIO during
     milestone reviews. The Overarching IPT, known as the Major Automated
     Information Systems Review Council until July 1998, was composed of senior
     managers representing the primary staff assistants with an interest in the subject
     system. For DCPDS, the Overarching IPT included senior managers from the
     offices of the Under Secretary of Defense (Acquisition, Technology, and
     Logistics); the Under Secretary of Defense (Comptroller); the Director,
     Operational Test and Evaluation; the Director, Program Analysis and Evaluation;
     and user representatives. Although the Overarching IPT reviewed and concurred
     with draft acquisition decision memoranda before formal DCPDS milestone
     decisions, it did not meet during milestone reviews to discuss the progress and
     status of the DCPDS Program and did not help identify potential programmatic
     problems. Instead, the Overarching IPT relied on a lower-level, Acquisition
     Oversight IPT to provide critical DCPDS oversight review and direction.

     Acquisition Oversight IPT. The Acquisition Oversight IPT continuously
     monitored DCPDS, but did not provide effective oversight to ensure that
     DCPDS complied with DoD acquisition requirements or milestone decision
     authority direction. From July 1997 through June 2000, the Acquisition

                                        14
    Oversight IPT met 18 times and monitored aspects of DCPDS such as program
    and life-cycle costs, information assurance, testing, Year 2000 planning,
    training, and outsourcing. The Acquisition Oversight IPT also provided
    program progress updates, established and tracked action items, and tracked
    audits and reviews. However, the Acquisition Oversight IPT did not effectively
    question the adequacy of program documentation or the actions of program
    officials. For example, the Acquisition Oversight IPT did not ensure that
    DCPDS Program officials prepared key documentation in accordance with DoD
    acquisition policies prior to milestone decision reviews and did not ensure that
    the provisions contained in related acquisition decision memoranda were met in
    a timely and efficient manner. Additionally, while the Acquisition Oversight
    IPT tracked the status of DCPDS audits and reviews, it did not ensure that
    DCPDS Program officials took corrective actions to address deficiencies
    identified by the Inspector General, DoD, and GAO.

    CIO Verification of Information. Overall, the CIO could improve oversight
    responsibilities through the periodic verification of information provided. CIO
    staff members informed us that oversight verification was seldom performed.
    Therefore, we concluded that prudent verification efforts could substantially
    improve the effectiveness of oversight responsibilities. For example, during the
    DCPDS certification briefing to the Deputy CIO, the review team provided
    qualified confirmations relating to steps taken on the congressional interest
    items. Nevertheless, the Deputy CIO provided Congress with an unqualified
    certification.

DoD Criteria and Approach for Determining Compliance
    The CIO certified that the DCPDS Program was being developed in accordance
    with the CCA, but the basis for the certification was unclear because the CIO
    had not established common criteria or a uniform approach to determine the
    adequacy of compliance. Further, the CIO did not describe the basis used for
    certification in the congressional notification.

    Bases Cited for DCPDS Certification. Because neither the compliance report
    nor the certification report specified a basis for certification, we asked staff
    members in the Office of the Secretary of Defense, who primarily developed the
    section 8121(b) certification process, to clarify the basis for system certification.
    Their answers indicated confusion as to the basis for certification. One CIO
    staff member stated that the basis for certification was premised on the CIO
    oversight process for major automated information systems; however, a member
    of Program Analysis and Evaluation staff stated that certification was based on
    an assessment of the steps taken relating to the five items of interest specified in
    section 8121(b). We evaluated both processes and determined that they both
    included notable weaknesses and did not provide a suitable basis for certifying
    to Congress that the DCPDS Program was managed and developed in
    accordance with the CCA.

    DoD Guidance for Certification. On July 13, 2000, the CIO issued a
    memorandum, “Department of Defense (DoD) Information Technology (IT)


                                         15
    Systems Certification Requirements,” on the certification process for major
    automated information systems. Overall, the procedures were similar to the
    DCPDS draft procedures. Specifically, the guidance requires that Component
    heads prepare a compliance report, confirm that steps were taken to address the
    congressional interest items, and provide descriptions of the steps taken.
    Further, the July 13, 2000, memorandum requires the Component head to
    concur that the subject system was developed in accordance with the CCA. The
    memorandum also included a sample template for compliance reporting. The
    template indicated that compliance could be determined by assessing the steps
    taken for the five specific interest items; however, it did not provide criteria for
    assessing CCA compliance and did not state any specific approach for
    determining the adequacy of compliance. Although section 8121(b) was
    applicable only during FY 2000, Congress included section 8121(b) certification
    requirements in section 811(c) of the Defense Authorizations Act of FY 2001.
    Accordingly, the CIO needs to develop specific criteria or specify a common
    approach for all DoD Components to achieve uniform and consistent compliance
    assessments.

Conclusion
    The CIO certified in May 2000 that DCPDS was being developed in accordance
    with the CCA. However, the January 1999 GAO report clearly indicated that
    DCPDS development was not compliant with the CCA. The CIO did not ensure
    that CPMS officials corrected the deficiencies reported by GAO and did not
    verify that the five specific interest items cited in section 8121(b) were
    completed in accordance with DoD acquisition policy. For example, a formal
    analysis of alternatives was never prepared and an in-depth, cost/benefit analysis
    was not prepared for any other alternative except the product selected for the
    DCPDS Program. Certain aspects of the CCA, such as an analysis of
    alternatives and an economic analysis, should have been thoroughly performed
    early in the DCPDS development process. Milestone III was too late in the
    DCPDS development process to obtain any of the benefits that an analysis of
    alternatives or an economic analysis could have provided. Although DCPDS
    was past the stage where reengineering business processes and an analysis of
    alternatives could be useful, the CIO needs to ensure that acquisition programs
    that are in the early stages of the acquisition process adhere to the principles and
    intent of the CCA.

    We realize that implementation of both the CCA and section 8121(b) (now
    section 811(c)) is still being refined. The lessons learned from DCPDS and
    other early system certifications will be useful in improving the effectiveness of
    this process.

Management Comments on the Finding and Audit Response
    Management Comments. The Acting Assistant Secretary of Defense (Force
    Management Policy) and the Director, Defense Civilian Personnel Management
    Service, jointly provided comments that strongly opposed our description of

                                         16
issues previously identified by GAO as CCA compliance issues because the
earlier program decisions, upon which the issues were based, were made prior
to the enactment of the CCA. Additionally, the GAO report did not assess DoD
compliance with CCA; rather, it evaluated whether DoD had applied the
principles of CCA. As to previously identified CCA compliance issues not
being fully resolved, the Acting Deputy Assistant Secretary of Defense (Deputy
CIO) also indicated that the report did not appropriately recognize that the CCA
was not in existence when relevant decisions were made.

Audit Response. The Assistant Secretary of Defense (Force Management
Policy) made very similar comments to a draft of the GAO report published in
January 1999. In its final report, GAO rebutted that, although initial DCPDS
decisions predated the CCA, the CCA had been in effect since 1996 and should
have been applied to all decisions made after its enactment. The GAO also
pointed out that OMB Circulars A-11 and A-130, which contain basic principles
of sound system acquisition management, existed when initial DCPDS decisions
were being made. Additionally, GAO cited several other acts that were in effect
at the time of initial DCPDS decisions, which contained requirements similar to
those outlined in the CCA. Those acts included the Government Performance
and Results Act of 1993, the Federal Acquisition and Streamlining Act of 1994,
and the Paperwork Reduction Act of 1995.

The basic concepts that were mandated by the CCA for the management of
information systems were not new to DoD. As previously discussed on pages 2
and 3, similar DoD policy and requirements existed prior to the enactment of
the CCA and were equally applicable to all program decisions made before and
after the enactment of CCA in 1996. For example, DoD Directive 8000.1,
“Defense Information Management (IM) Program,” October 27, 1992,
established requirements and responsibilities related to each of the
section 8121(b) interest items: business process reengineering, analysis of
alternatives, economic analysis, performance measures, and information
assurance.

The Acting Assistant Secretary of Defense (Force Management Policy) jointly
with the Director, Civilian Personnel Management Service, and the Acting
Deputy Assistant Secretary of Defense (Deputy CIO) disagreed with many other
aspects of the draft report finding and discussion and provided extensive
comments. A summary of additional management comments and the audit
response is in Appendix D. The full text of management comments is in the
Management Comments section of this report.




                                   17
Recommendations, Management Comments, and Audit
  Response
    Based on management comments, we revised Recommendations 1.c., 2.a., and
    2.b.

    1. We recommend that the Chief Information Officer, DoD, Assistant
    Secretary of Defense (Command, Control, Communications, and
    Intelligence):

           a. Clarify and enhance the criteria and approach to be used by DoD
    Components for determining whether major automated information systems
    are developed in accordance with the Clinger-Cohen Act of 1996.

           b. Strengthen Chief Information Officer oversight processes,
    including the process for certifying that major automated information
    systems are developed in accordance with the Clinger-Cohen Act of 1996, by
    periodically confirming the accuracy and adequacy of information reported
    by DoD Components.

          c. In coordination with the Director, Civilian Personnel
    Management Service, ensure the implementation of standard DoD
    performance measures for the Defense Civilian Personnel Data System.

           d. Provide oversight of the Defense Civilian Personnel Data System
    program acquisition and management responsibilities performed by the
    Civilian Personnel Management Service during Phase III and enforce the
    requirements of the acquisition decision memorandum.

    Management Comments. The Acting Deputy Assistant Secretary (Deputy
    CIO) concurred with Recommendations 1.a., 1.b., and 1.d. Regarding
    Recommendation 1.a., the Deputy CIO agreed that better CCA compliance
    guidelines and standards were needed and planned to partner with DoD
    Components and Office of the Secretary of Defense oversight organizations to
    develop the guidelines and standards. In response to Recommendation 1.b., the
    Deputy CIO cited recent changes to DoD acquisition policy that require DoD
    officials to provide CCA certification or confirmation in a number of areas.
    The Deputy CIO also restated the intent to develop certification guidelines and
    standards. As to Recommendation 1.d., the Deputy CIO stated that DCPDS
    acquisition and management will continue to be overseen throughout Phase III to
    ensure compliance with the acquisition decision memorandum.

    The Deputy CIO nonconcurred with Recommendation 1.c. in the draft report,
    stating that implementation of performance measures was more appropriately a
    responsibility of the Under Secretary of Defense (Personnel and Readiness).




                                      18
Although not required to comment, the Acting Assistant Secretary of Defense
(Force Management Policy) and the Director, Civilian Personnel Management
Service, jointly provided comments on the recommendations. For the complete
text of their comments, see the Management Comments section of this report.

Audit Response. The comments of the Deputy CIO were partially responsive
on Recommendations 1.a., 1.b., and 1.d. For Recommendation 1.a., The
Deputy CIO stated that CCA compliance guidelines and standards would be
developed, but did not include an anticipated completion date. Accordingly, we
request additional comments on the anticipated completion date of planned
actions. Regarding Recommendation 1.b., management comments were not
responsive to the intent of the recommendation. To avoid providing Congress
and other organizations with potentially misleading information regarding
Clinger-Cohen compliance of DoD information systems, the CIO should take
steps to ensure that the information provided by DoD Components is accurate
and objective. Accordingly, we request additional comments explaining how
the DoD CIO will periodically confirm the accuracy and adequacy of
information reported. We also request the completion date of actions planned.
For Recommendation 1.d., the Deputy CIO did not describe how the Office of
the DoD CIO will continue to oversee the DCPDS program acquisition and
management responsibilities performed by the CPMS during Phase III. We
request additional comments that describe the plan of action for continued
oversight during Phase III and provide the anticipated completion date for
enforcement of the ADM requirements.

In response to management comments on the draft recommendations, we revised
Recommendation 1.c. to more appropriately place implementing responsibilities
for performance measurements on the Director, CPMS, and coordination and
oversight responsibilities on the CIO. Accordingly, we request that the CIO
provide additional comments on the revised recommendation that include an
action plan and an anticipated completion date for the implementation of
standardized performance measures.

2. We recommend that the Director, Civilian Personnel Management
Service:

      a. Appropriately secure all interfaces between the Defense Civilian
Personnel Data System and other automated systems.

       b. Develop, and make readily and easily available to Defense
Civilian Personnel Data System users, guidance to adequately define
password characteristics and procedures to avoid unauthorized use of
terminals and to mark sensitive data appropriately.

Management Comments. The Acting Assistant Secretary of Defense (Force
Management Policy) and the Director, Civilian Personnel Management Service,
indicated nonconcurrence with both recommendations and stated that the
DCPDS interfaces were appropriately secure and would be monitored
throughout deployment. Management also stated that because the Designated
Approving Authority had already accepted the system risks and mitigating
circumstances for DCPDS, a delay in deployment was unwarranted and


                                  19
unnecessary. Additionally, CPMS had coordinated with the Defense Finance
and Accounting Service on the single interface (two-way data feed) between
DCPDS and the payroll system. The Defense Finance and Accounting Service
had no plans to encrypt this data.

Audit Response. We met with CPMS officials on February 1, 2001, to discuss
our draft recommendations. We initiated the meeting to clarify our position and
concerns. Regarding Recommendation 1.a., we identified five DCPDS
interfaces, (which we define as any exchange of data between systems,
regardless of whether the exchange is one- or two-way), that had not been
considered during formal documented DCPDS risk analyses. We provided
CPMS officials with a list of the specific unprotected interfaces and provided
suggestions that would minimize the associated risks of sending unsecured data,
passwords, and user identifications over the Internet. Potential consequences
included unauthorized access to sensitive data, data alteration, access to system
login accounts, and the introduction of viruses or Trojan horses to the system.

Also at that meeting, CPMS officials expressed reluctance to include detailed
guidance on passwords in the DCPDS Users Manual. They felt that because the
Users Manual was web-based, detailed password composition guidance was not
appropriate on such an open forum and would pose too much of a security risk.
We acknowledged those security concerns, but reiterated that awareness and
training on appropriate security procedures are the first line of defense against
unauthorized access to the DCPDS information and network of systems. Based
on management concerns, we agreed to no longer require that the enhanced
guidance be published in the Users Manual. We also agreed to revise
Recommendation 2.b. to allow for alternate implementation methods, as long as
CPMS officials documented the needed guidance and requirements and make
them readily and easily available to DCPDS users. We also reiterated that
periodic security training for DCPDS users will assist in maintaining the
security of the system. Accordingly, we revised the discussion and
recommendation on information assurance in this final report.

Because the DCPDS Designated Approving Authority recognized and accepted
the risks identified, we revised Recommendation 2 to remove the requirement to
tie further system deployment to implementation of the recommended actions.
We request that the Assistant Secretary reconsider our recommendations and
provide additional comments.




                                   20
Appendix A. Audit Process

Scope and Methodology
    We evaluated the basis for the certification made to Congress in response to
    section 8121(b) and the effectiveness of oversight provided by the Overarching
    IPT, the Acquisition Oversight IPT, and the milestone reviews. Specifically,
    we reviewed the certification process including the compliance report prepared
    by CPMS, briefing charts used to brief the Deputy CIO on the DCPDS
    certification process, and the certification report submitted to Congress by the
    CIO. We discussed various aspects of the DCPDS certification process,
    procedures, and information provided to Congress with staff of the Director,
    CPMS, staff of the Director, Program Analysis and Evaluation, and staff of the
    CIO. We also reviewed the minutes from 18 Acquisition Oversight IPT
    meetings held from July 1997 to March 2000 and inquired about the oversight
    provided by the OSD Overarching IPT. We determined whether program
    officials prepared key documentation prior to the milestone reviews on May
    1996 and May 2000, and reviewed the ADMs issued for those two milestone
    reviews. We also determined whether the exit criteria provided in the May
    1996 and May 2000 ADMs were well-defined and enforced by the MDA and his
    staff. Finally, we reviewed the actions taken in response to prior audits and
    reviews of the DCPDS Program.

    DoD-Wide Corporate Level Government Performance and Results Act
    Coverage. In response to the Government Performance Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate level goals,
    subordinate performance goal, and performance measures. This report pertains
    to achievement of the following goals and subordinate performance goal.

    •   FY 2001 DoD Corporate Level Goal 2: Prepare now for an uncertain
        future by pursuing a focused modernization effort that maintains U.S.
        qualitative superiority in key warfighting capabilities. Transform the force
        by exploiting the Revolution in Military Affairs, and reengineer the
        Department to achieve a 21st century infrastructure. (01-DoD-2)

    •   FY 2001 DoD Subordinate Performance Goal 2.5: Improve DoD
        financial and information management. (01-DoD-2.5)

    DoD Functional Area Reform Goals. Most major DoD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following functional area objectives and
    goals:

    •   Information Technology Management Functional Area.
        Objective: Become a mission partner. Goal: Serve mission information
        users as customers. (ITM-1.2)



                                        21
    •   Information Technology Management Functional Area.
        Objective: Provide services that satisfy customer information needs.
        Goal: Modernize and integrate Defense information infrastructure.
        (ITM-2.2)

    •   Information Technology Management Functional Area.
        Objective: Provide services that satisfy customer information needs.
        Goal: Upgrade technology base. (ITM-2.3)

    •   Information Technology Management Functional Area.
        Objective: Reform information technology management processes to
        increase efficiency and mission contribution. Goal: Institutionalize
        provisions of the Information Technology Management Reform Act of 1996,
        (renamed as the Clinger-Cohen Act of 1996). (ITM 3.1)
    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the Information Management and Technology high-risk area.

    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.

    Use of Technical Assistance. We received technical assistance from a
    computer engineer in the Technical Assessment Division, Audit Followup and
    Technical Support Directorate. The computer engineer reviewed DCPDS
    documentation on information security and testing. Specifically, the computer
    engineer reviewed the Test and Evaluation Master Plan, the Qualification
    Operational Test and Evaluation Final Report, the Security Test and Evaluation
    Report, and the System Security Authorization Agreement.

    Audit Type, Dates, and Standards. We performed this economy and
    efficiency audit from May through December 2000, in accordance with auditing
    standards issued by the Comptroller General of the United States, as
    implemented by the Inspector General, DoD. We comply with Government
    Auditing Standards except for the requirement for an external quality control
    review. Measures have been taken to obtain an external quality control review.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available upon request.

Prior Coverage
    General Accounting Office
    GAO/AIMD-99-20 (OSD Case No. 1719) “Defense IRM: Alternatives Should
    Be Considered in Developing the New Civilian Personnel System,”
    January 1999.



                                       22
Inspector General, DoD
Inspector General, DoD, Report No. 98-127 “Information Assurance of the
Defense Civilian Personnel Data System - Navy,” April 29, 1998.

Inspector General, DoD, Report No. 98-082, “Information Assurance of the
Defense Civilian Personnel Data Service,” February 23, 1998.

Inspector General, DoD, Report No. 98-041 “Acquisition Management of the
Defense Civilian Personnel Data System,” December 16, 1997.




                                 23
Appendix B. Defense Civilian Personnel Data
            System
   Based on a 1994 study, DoD decided to replace multiple, mainframe-based
   personnel management support systems with a single, standard DoD system to
   better support personnel operations approximately 800,000 defense civilian
   personnel. Improving the efficiency of DoD civilian personnel processes and
   increasing the overall cost-effectiveness of personnel operations were the
   primary objectives for developing a modern DoD civilian personnel system.
   The Director, CPMS, tasked to achieve those objectives, developed a functional
   program with two primary and complementary thrusts. Personnel operations
   costs would be reduced through regional operations centers, and DCPDS would
   be developed to provide enhanced, DoD-wide automated support for civilian
   personnel management offices.

   Under regionalization, civilian personnel operations were consolidated into
   22 Regional Service Centers and more than 300 Customer Support Units. The
   Regional Service Centers performed several personnel management processes on
   a centralized, more economical basis, while Customer Support Units provided
   routine personnel management services on a face-to-face basis at DoD
   installations. The DCPDS would provide an automated improvement to
   personnel management processes and convert many paper-based civilian
   personnel transactions to electronic transactions. When fully deployed, DCPDS
   would provide the software application tools and the requisite hardware to
   support civilian personnel mission requirements for all DoD Components.

   The DCPDS would also provide different levels of support capability for
   regional and local civilian personnel management offices. Because the Regional
   Service Centers perform a greater variety of personnel management functions,
   they would receive the full suite of DCPDS software and a commensurate level
   of hardware. The Customer Support Units would receive a version of the
   DCPDS commensurate with the scope of their operations. The basic design of
   the system was a client-server architecture. Data entered into the system at the
   Customer Support Units would update records located at the Regional Service
   Centers. The database of records for each DoD civilian employee would reside
   at their respective Regional Service Center. CPMS also developed a
   centralized, DoD-wide Corporate Management Information System for
   DoD-wide reports and ad-hoc inquiry purposes. DCPDS modernization will cut
   personnel requirements, reduce processing time, eliminate redundant data entry,
   and eliminate the use of multiple databases.

   The Director, CPMS, expected the DCPDS to enhance productivity by requiring
   fewer field employees and providing personnel specialists with the ability to
   service greater numbers of customers. At the end of FY 1994, one personnel
   specialist serviced 66 employees; in 2001, one personnel specialist would be



                                      24
expected to service 88 employees. Expected nonquantifiable benefits included
providing improved data to the DoD payroll system and a more responsive,
open-systems environment.

Status and Estimated Costs of the DCPDS Program. The DCPDS Program,
which was initiated on December 5, 1994, received Milestone 0 approval on
May 22, 1995. A conditional Milestone I approval occurred on May 20, 1996,
and a conditional Milestone III approval was granted on May 19, 2000.
DCPDS was initially deployed to a few test sites in 1999. The DCPDS
Program’s estimated life-cycle costs from FY1995 through FY2010 total about
$1.3 billion. By May 2001, CPMS had deployed DCPDS core systems to five
sites and expanded testing at six test sights. CPMS plans to deploy DCPDS to
the remaining 15 systems by September 2001.




                                  25
Appendix C. Timeline of Major DCPDS
            Program Documentation


March 15, 1995       Mission Needs Statement

May 22, 1995         Milestone 0 Approval

June 1995            Original Acquisition Program Baseline

October 1995         Original Operational Requirements Document

October 1995         Original Test and Evaluation Master Plan

January 17, 1996     1996 Economic Analysis

May 20, 1996         Conditional Milestone I Approval

October 3, 1996      Initial Operational Requirements Document Approval

September 29, 1997   1997 Economic Analysis

February 25, 1998    Initial Acquisition Program Baseline Approval

September 20, 1998   1998 Economic Analysis

October 15, 1998     Acquisition Program Baseline, Revision 1

January 9, 1999      Initial Test and Evaluation Master Plan Approval

October 11, 1999     Acquisition Program Baseline, Revision 2

November 23, 1999    Revised Operational Requirements Document

January 2000         1999 Economic Analysis

May 10, 2000         Section 8121(b) Certification

May 19, 2000         Conditional Milestone III Approval




                        26
Appendix D. Summary of Management
            Comments on the Finding and
            Audit Response
   Acting Assistant Secretary of Defense (Force Management Policy)
   Comments. The Assistant Secretary disagreed with several parts of the finding
   and supporting discussion, and stated that the draft report seemed to concentrate
   on the DCPDS and to evaluate the actions of its managers rather than address
   Clinger-Cohen certification. The Assistant Secretary also disagreed with our
   discussions related to business process reengineering, analysis of alternatives
   and economic analysis, and performance measures.

   Regarding business process reengineering, the Assistant Secretary nonconcurred
   that CPMS officials did not critically examine and redesign their mission
   delivery processes, as a whole, before deciding to invest in DCPDS. Citing a
   deliberate decision to incrementally implement new processes to avoid
   disruption of ongoing civilian personnel support operations and binding Federal
   rules and regulations, the Assistant Secretary stated that although sudden and
   dramatic change may not have been achieved, DCPDS had, nonetheless,
   dramatically changed the fundamental way in which DoD delivers civilian
   personnel services.

   Concerning the adequacy of analysis of alternatives and economic analysis, the
   Assistant Secretary disagreed that DoD had no conclusive evidence that its
   investment in DCPDS was optimal. Cost was only one factor considered in
   evaluating and selecting program approaches. Additionally, the Assistant
   Secretary stated that we did not acknowledge that GAO representatives
   indicated, in July 1999, that it was too late in the program to determine whether
   the selection of the Oracle product was optimal. Further, a projected return on
   investment of 72.6 percent indicated that investment in DCPDS was worthwhile.
   As to performance measures, the Assistant Secretary believed our assessment to
   be premature and did not reflect DoD ongoing efforts. Citing those ongoing
   efforts to establish standardized performance measures with standard definitions,
   the Assistant Secretary recommended that we revise our discussion on
   performance measures.

   On the discussion of key documentation for milestone reviews, the Assistant
   Secretary disagreed that key acquisition documents were not prepared or were
   not prepared and approved in a timely manner, and were not regularly updated.
   Acknowledging that the coordination of some documents, especially the
   acquisition program baseline, operational requirements document, and test and
   evaluation master test plan, took an extensive amount of time, copies of all
   required program documentation were provided to oversight officials prior to
   each milestone review. Further, the official publication and signature dates
   were not indicative that DCPDS officials worked in isolation from oversight
   bodies. The Assistant Secretary stated that documents rarely changed between
   versions and oversight officials were fully aware of the process required for
   coordination and were satisfied with the coordination progress made.


                                      27
Concerning our discussion of whether the conditional Milestone I approval was
nullified because the conditions of the ADM were not met, the Assistant
Secretary stated that approved documents were submitted as required and the
Milestone I decision was not nullified.

The Assistant Secretary also disagreed that that CIO management controls for
overseeing the DCPDS development did not provide active oversight
participation and involvement by senior DoD advisors at key decision points or
adequate and ongoing direction and guidance to the DCPDS Program. Their
representatives on the Acquisition Oversight IPT kept members of the
Overarching IPT aware of DCPDS acquisition status and potential problems.
Further, the Deputy Assistant Secretary of Defense (Civilian Personnel Policy)
and the Director, CPMS, met with Overarching IPT members several times to
discuss key program decisions.
Additionally, the Assistant Secretary recommended that the costs of
regionalization and systems modernization be differentiated in our discussion of
estimated costs of the DCPDS Program in Appendix B. Further, changes
should be made to Appendix C, Timelines of Major DCPDS Program
Documentation, to more clearly show when selected key documents were first
developed and approved by CPMS.

Audit Response. The audit and the report’s focus was on the DoD CIO’s
unqualified certification and the effectiveness of DoD CIO oversight of the
DCPDS Program rather than on DCPDS management actions. We determined
whether the DoD CIO had sufficient basis to certify that selected systems were
developed in accordance with the CCA. To evaluate the oversight process of
major automated information systems for compliance with the DoD
implementation of CCA, we reviewed the process, procedures, and supporting
program documentation of a system that was certified as being developed in
accordance with the CCA.

We amended our discussion of previously identified issues to more clearly show
that many issues were decided before the CCA was legislated. We also clarified
that, as stated in the January 1999 GAO report, the principles set forth in the
CCA were not new, but merely reiterated and reinforced existing Office of
Management and Budget and DoD information system development and
management policies. Based on management comments and reconsideration of
other factors, we revised the discussion of business process reengineering to
reflect that related efforts met the intent of the CCA. We also amended our
discussions of analysis of alternatives and economic analysis, and performance
measures. However, we did not change our related conclusions. For analysis
of alternatives, although minimal documentation was available, it simply did not
provide conclusive economic evidence that the commercial software obtained
represented the best investment alternative. Regarding performance measures
and ongoing efforts to institutionalize standard measurements, the CPMS had
not implemented DoD-wide standardized functional performance measures.




                                   28
Until that occurs, DoD continues to incur a risk of having to compare disparate
information in assessing DCPDS performance gains by the functional
community.

Regarding the Assistant Secretary’s comments on key acquisition
documentation, we revised the report to clarify the need for coordination and
obtaining approvals from DoD organizations other than CPMS for various key
acquisition documents. However, the management comments did not alter our
conclusion that, for DCPDS, the CIO did not ensure that key documentation was
appropriately prepared and approved for consideration during milestone
reviews. Additionally, we take exception to the Assistant Secretary’s implying
that delays in submitting appropriately approved documents were tacitly
approved. Documented direction from the DoD CIO does not support that
contention. The Milestone I approval occurred in May 1996, and the associated
ADM specified that an approved acquisition program baseline be provided
within 60 days. In July 1997, and again in October 1997, the chair of the Major
Automated Information Systems Review Council formally emphasized to CPMS
managers the need for an approved acquisition program baseline document.
Further, we noted that the Assistant Secretary did not comment on other key
acquisition documentation discussed in the report, such as an implementation
risk analysis and mediation plan or an approach for resolving DCPDS
operational test and evaluation issues, which the CIO should be expected to
require for consideration during the Milestone III review. In regard to whether
the DCPDS Milestone I conditional approval was nullified, because the required
documentation was not fully and appropriately approved within the required
timeframe and because no final Milestone I decision was documented, we
conclude that the matter is uncertain.

As to the adequacy of oversight IPTs, the draft report recognized their
involvement in milestone decisions and the ongoing monitoring and tracking of
DCPDS activities and events. However, we continue to question whether the
Overarching IPTs can provide effective advice to the CIO during milestone
decisions if they never actually meet to review program progress and ensure that
the program appropriately “fits” into higher level DoD initiatives and
considerations. In addition, we continue to question the effectiveness of the
Acquisition Oversight IPT in making sure that DoD acquisition policies and
direction are effectively implemented by DCPDS and other major DoD
information technology programs.

In this final report, we amended Appendixes B and C to address the suggestions
of the Assistant Secretary.

Acting Deputy Assistant Secretary of Defense (Deputy CIO) Comments.
The Deputy CIO disagreed with each factor we cited in the Finding (page 5) as
contributing to an insufficient basis for the unconditional certification of
DCPDS. The Deputy CIO stated that although draft procedures were used to
develop, coordinate, and review the DCPDS certification, the certification was
not adversely impacted by the use of draft procedures. As to previously
identified CCA compliance issues not being fully resolved, the Deputy CIO
indicated that the report did not appropriately recognize that the CCA did not
exist when relevant decisions were made. Concerning the adequacy of data


                                   29
analysis for certification, the Deputy CIO cited the involvement of the CCA
Working Integrated Product Team during the certification review and asserted
that the data submitted for each interest item were analyzed and found to
adequately support CCA certification. Regarding the appropriate preparation,
approval, and updating of key acquisition documents, the Deputy CIO stated
that DoD senior officials in support of DCPDS approved all key acquisition
documentation in accordance with acquisition directives and regulations. Citing
the need for extensive coordination of some documents, the Deputy CIO
acknowledged delays but stated that acquisition oversight officials were always
aware of the status of key acquisition documents.

The Deputy CIO disagreed that milestone exit criteria were not well-defined or
sufficiently tracked and enforced, stating that milestone exit criteria were
prepared in accordance with DoD acquisition guidance and that DoD CIO
acquisition oversight staff and the Acquisition Oversight IPT monitored and
actively tracked MDA decisions. The Deputy CIO disagreed that management
controls for overseeing the DCPDS development were ineffective in providing
active participation and involvement by senior DoD officials or in providing
adequate and ongoing direction and guidance to the DCPDS Program. Senior
level involvement was achieved via feedback received from their representatives
on the Acquisition Oversight IPT. Further, in accordance with DoD acquisition
guidance, the Acquisition Oversight IPT resolved as many issues as possible,
and elevated remaining issues to the DoD CIO who issued ADMs to provide
ongoing program direction and guidance. Lastly, citing DoD guidance issued in
May 1997 (see page 53) and the previously discussed certification guidance
issued in July 2000, the Deputy CIO disagreed that DoD had not established
specific criteria for or defined a common approach to evaluating the basis for
CCA certification.

Audit Response. In several cases, the Deputy CIO comments paralleled those
provided by the Assistant Secretary. The audit response from the Assistant
Secretary also addressed the Deputy CIO comments concerning the factors that
contributed to an insufficient basis for unconditional certification of DCPDS.
As such, we have limited this audit response to the unique aspects of comments
made by the Deputy CIO.

Regarding the use of draft procedures for DCPDS certification, we believe that
official guidance is preferable to draft guidance because there is no question as
to its applicability. However, in considering management comments, we agree
that the use of draft procedures during the DCPDS certification process did not
materially affect the validity of the certification. Accordingly, we removed the
use of draft certification procedures as a cause of the insufficient basis for an
unqualified certification by the CIO.

Concerning the adequacy of data analysis for certification, we do not understand
the basis for the CIO assertion that the relevant data was analyzed and found to
adequately support certification. The draft report recognized that the DCPDS
certification review team, in briefing the DoD CIO, presented qualified
confirmations of steps taken for business process reengineering, analysis of
alternatives, and performance measures, because the GAO previously identified

                                    30
problems in those areas. The review team recommended certification because
CPMS had initiated action to address GAO concerns. However, we found no
documentation of the review team’s action to review and verify the extent or
reasonableness of CPMS actions. The GAO report provided ample indicators
that DCPDS had not been developed in accordance with the intent of the CCA.
Although it was too late in the DCPDS development process to apply all CCA
principles, the CIO certification report should have acknowledged that fact and
appropriately qualified the CCA certification.

As discussed in the report, we do not agree with the Deputy CIO assertion that
key acquisition documents were appropriately approved and submitted for MDA
consideration prior to the Milestone I or Milestone III reviews.

The report acknowledges that the CIO issued guidance on CCA certification.
However, as further discussed in the report, the guidance was very broad and
did not provide specific criteria to evaluate CCA compliance by DoD
Components. Additionally, no common approach for determining CCA
compliance was specified. The CIO needs to issue specific criteria so that
oversight organizations and functional proponents can ensure that programs,
such as DCPDS, are consistently and sufficiently assessed as to their compliance
with the intent of the CCA.




                                   31
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
  Director, Program Analysis and Evaluation
Assistant Secretary of Defense (Command, Control, Communications, and Intelligence)
  Deputy Assistant Secretary of Defense (Deputy Chief Information Officer)
      Director, Investment and Acquisition
Assistant Secretary of Defense (Force Management Policy)
  Deputy Assistant Secretary of Defense (Civilian Personnel Policy)
      Director, Civilian Personnel Management Service

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General

Department of the Air Force
Assistant Secretary of the Air Force (Acquisition)
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Defense Logistics Agency

Non-Defense Federal Organizations
Office of Management and Budget




                                          32
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                       33
Assistant Secretary of Defense (Command,
Control, Communications, and Intelligence)
Comments




                   35
Final Report
 Reference




Deleted,
page 5




               36
37
38
39
40
     Final Report
      Reference




      Revised,
      page 18




41
42
43
44
45
46
47
48
49
50
51
52
53
54
55
56
57
58
59
60
61
62
Assistant Secretary of Defense (Force
Management Policy) Comments




                    63
64
     Final Report
      Reference




     Page 5




65
Final Report
 Reference




  Revised,
  Page 5




               66
67
68
69
Final Report
 Reference




Pages 18
through 19




Revised,
page 19




               70
     Final Report
      Reference




        Revised,
        page 19




71
Final Report
 Reference




 Page 6



 Revised,
 page 7




 Revised,
 page 7




               72
     Final Report
      Reference




     Pages 7
     through 8




73
Final Report
 Reference




 Page 8




 Revised,
 page 11




               74
     Final Report
      Reference




      Revised,
      page 12




      Revised,
      page 16




75
Final Report
 Reference




Revised,
page 25




Revised,
page 26




               76
Audit Team Members
The Acquisition Management Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Assistant Inspector
General, DoD, who contributed to the report are listed below.

Mary L.Ugone
Wanda A. Hopkins
James W. Hutchinson
Virginia B. Rogers
James B. Mitchell
Jerry Hall
Kevin W. Klein
Genea S. Pack
Peter C. Johnson
Jacqueline N. Pugh
